<html>
<title> - UNFUNDED MANDATES: EXAMINING FEDERALLY IMPOSED BURDENS ON STATE AND LOCAL GOVERNMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



  UNFUNDED MANDATES: EXAMINING FEDERALLY IMPOSED BURDENS ON STATE AND 
                            LOCAL GOVERNMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       INTERGOVERNMENTAL AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                           Serial No. 115-24

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-556 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>                       
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                      Katy Rother, Senior Counsel
                    William McKenna General Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

               Subcommittee on Intergovernmental Affairs

                     Gary Palmer, Alabama Chairman
Glenn Grothman, Wisconsin, Vice      Val Butler Demings, Florida, 
    Chair                                Ranking Minority Member
John J. Duncan, Jr., Tennessee       Mark DeSaulnier, California
Trey Gowdy, South Carolina           (Vacancy)
Virginia Foxx, North Carolina        (Vacancy)
Thomas Massie, Kentucky
Mark Walker, North Carolina
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2017...................................     1

                               WITNESSES

The Hon. Wayne Niederhauser, President, Utah State Senate
    Oral Statement...............................................     6
    Written Statement............................................     9
The Hon. Jim Davis, Senator, North Carolina State Senate
    Oral Statement...............................................    13
    Written Statement............................................    15
The Hon. Gary Moore, Judge/Executive, Boone County, Kentucky
    Oral Statement...............................................    18
Full Statement of the Hon. Gary Moore can be found at: http://
  docs.house.gov/meetings/GO/GO04/20170426/105942/hhrg-115-GO04-
  Wstate-MooreG-20170426.pdf
The Hon. Jermaine Reed, Councilman, City of Kansas City, Missouri
    Oral Statement...............................................    19
    Written Statement............................................    21
The Hon. Jeff McKay, Supervisor, Fairfax County Board of 
  Supervisors, Alexandria, Virginia
    Oral Statement...............................................    29
    Written Statement............................................    31

                                APPENDIX

Opening Statement of Subcommittee Chairman Gary Palmer...........    52

 
  UNFUNDED MANDATES: EXAMINING FEDERALLY IMPOSED BURDENS ON STATE AND 
                            LOCAL GOVERNMENT

                              ----------                              


                       Wednesday, April 26, 2017

                  House of Representatives,
         Subcommittee on Intergovernmental Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Gary J. Palmer 
[chairman of the subcommittee] presiding.
    Present: Representatives Palmer, Grothman, Foxx, Walker, 
Demings, and DeSaulnier.
    Also Present: Representatives Meadows, Comer, and Connolly.
    Mr. Palmer. The Subcommittee on Intergovernmental Affairs 
of the Committee on Oversight and Government Reform will come 
to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Today, we are examining Federal unfunded mandates and their 
impact on State and local governments. The issue of unfunded 
mandates is central to this subcommittee, which is charged with 
oversight of the relationship between the Federal Government 
and State and local government partners. In December, the 
chairman sent a letter to Governors, State legislators, and 
county and local government officials soliciting feedback on 
the most burdensome or impactful Federal unfunded mandates. 
Respondents cited over 645 individual Federal laws and 
regulations that have taken away the ability of local 
governments to decide how best to serve their constituencies. 
Almost a quarter of those laws represented Federal 
environmental requirements.
    Governor Eddie Calvo of Guam reported that the compliance 
costs for the EPA's enforcement of the Clean Air Act, Clean 
Water Act, and Safe Drinking Water Act alone equates to almost 
$10,000 per man, woman, and child, and makes the basic cost of 
utilities for the median household unsustainable.
    Unfunded mandates reported to the committee covered a 
variety of topics, from labor to housing to transportation to 
prison administration. This issue does not discriminate. Of the 
most cited laws, Medicaid was routinely reported to be one of 
the most burdensome, imposing billions of dollars on 
communities annually for care that is often not reimbursed.
    Higher education institutions in the State of Virginia 
report spending millions annually on compliance with Federal 
education laws. The University of Virginia, for example, spends 
an estimated $20 million a year just to comply with unfunded 
mandates.
    Respondents cited mandates imposing significant 
administrative costs with no identifiable benefits, mandates 
requiring standards inconsistent with the needs of the State, 
and mandates that are simply impossible to achieve. In certain 
cases, such as implementation of the new National Ambient Air 
Quality Standards, unfunded mandates reportedly resulted in 
direct loss of jobs. The corresponding costs of these mandates 
are directly borne by the taxpayer.
    Merely looking at cost, however, is not sufficient. The 
time and resources that States and local governments take to 
comply with these mandates demonstrate that current law does 
not adequately capture the extent of the burden of unfunded 
mandates. As an example, Speaker Mac McCutcheon from my home 
State of Alabama shared an unworkable Department of 
Transportation mandate that requires the State to outline a 
financial plan for certain projects for up to 30 years without 
knowing the source of funding that far into the future, making 
the annual exercise just that, an exercise. What we heard from 
nearly all the respondents is that the attempt to provide a 
one-size-fits-all solution effectively strips officials of the 
flexibility necessary to govern at the State and local level.
    Every dollar a State or local government uses to comply 
with Federal law is a dollar they can't direct to specific 
needs at their own levels of government. The committee learned 
that a Federal Aviation Administration policy change resulted 
in the use of State and local infrastructure funds to pay for 
flight inspections in Oklahoma. A small rural county in Nevada 
had to consider closing its sole library, which was its 
residents' key source of internet access, after the Department 
of Labor implemented its overtime rule. These tradeoffs are 
made every day by State and local officials.
    I would like to thank each of the witnesses today for 
taking valuable time out of their schedules to appear here 
today to testify. You are uniquely situated to provide insight 
into this issue and where we should go from here.
    I now recognize the gentlelady from Virginia, Congresswoman 
Virginia Foxx, for the remainder of my time.
    Ms. Foxx. I thank the chairman for yielding.
    Like some of you, I served as an elected official in State 
and local government, and can testify to the difficulty of 
balancing a State budget when there are dozens of complicated 
unfunded Federal mandates that must be taken into account. In 
1995, in a model of bipartisanship, Congress passed and 
President Clinton signed the Unfunded Mandates Reform Act, or 
UMRA. UMRA was designed to force the Federal Government to 
estimate and report how much its mandates would cost local and 
State governments, which was previously not the case. UMRA was 
not intended to prevent the government from regulating or 
legislating, but, rather, to ensure that decisionmakers have 
the best information possible when crafting new policies.
    I have always admired the purpose and spirit of UMRA, but 
weaknesses in the law have been exploited in the intervening 
decades, and they need to be addressed. For instance, most 
independent agencies, like the FCC and the SEC, are not subject 
to UMRA's requirements for their proposed regulations. Costly 
changes in conditions of grant aid don't fall within the 
definition of a mandate, and agencies can skip UMRA cost 
analyses if they begin rulemaking with a mechanism other than a 
formal notice of proposed rulemaking. Finally, UMRA measures 
only direct costs of compliance with mandates, and the law 
contains no enforcement or accountability mechanisms which 
allow State and local governments recourse if the process is 
not followed. It is my hope that this hearing will be a first 
step toward an improved and more transparent regulatory process 
that eases the burdens passed onto State and local governments. 
To that end, since 2007, I have worked on a bill known as the 
Unfunded Mandates Information and Transparency Act, or UMITA, 
which seeks to address some of UMRA's shortcomings and will 
help the law meet its unfulfilled potential. UMITA will ensure 
public and bureaucratic awareness about the cost that Federal 
regulations impose on the economy and local governments. It 
will also make our regulatory apparatus more efficient, 
effective, and transparent. UMITA has bipartisan DNA, and its 
purpose is purely about good government, that of openness and 
honesty about the cost of regulations.
    These principles do not belong to either party. That is why 
my Democratic colleague Henry Cuellar joined me in introducing 
the bill, and it is why it has passed the House in previous 
Congresses with overwhelming support from both parties. 
Republicans and Democrats can agree that every unfunded mandate 
the Federal Government imposes should be both deliberative and 
economically defensible.
    Thank you for your time, and thank you, Mr. Chairman, for 
yielding.
    Mr. Palmer. The chair notes the presence of our colleagues 
Congressman Meadows of North Carolina, Congressman Connolly of 
Virginia, and Congressman Comer of Kentucky. We appreciate your 
interest in this topic and welcome your participation today.
    And the chair recognizes the gentleman from North Carolina, 
Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I want to thank my colleague Ms. Foxx for her leadership on 
this particular issue, for your leadership in bringing forward 
this hearing.
    But I am here today to thank the fine senator from North 
Carolina, Senator Jim Davis, who is probably the best qualified 
person to speak on this topic, because when I didn't know what 
unfunded mandates were, Senator, you as a county commissioner 
were telling me what it was. You knew all too well those 
Federal mandates that came down, and we required you to have to 
pay for it at the county level. You have been an advocate on 
this, not only as a county commissioner, but now as my State 
senator and someone I enjoy calling my friend. Thank you for 
making the special effort. Thank you for your expert testimony.
    And, Mr. Chairman, I yield back.
    Mr. Palmer. I thank the gentleman.
    The chair now recognizes the gentlewoman from Florida, the 
ranking member, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Good morning, everyone.
    Let me start by saying I am very pleased, Mr. Chairman, to 
join you as ranking member of this subcommittee. We have had 
one joint subcommittee hearing, but this is our first hearing 
of just the Intergovernmental Subcommittee. I look forward to 
working with you in a bipartisan manner to conduct rigorous, 
yet effective, oversight.
    I am glad we are having this hearing to examine the impact 
of unfunded mandates on State and local governments by the 
Federal Government. As a former chief of police for the city of 
Orlando, Florida, I am keenly aware of the challenges State and 
local governments face in managing their local budget and 
implementing Federal mandates. Right now, I believe the single 
biggest threat to State and local funding is President Trump's 
proposed budget. It slashes hundreds of billions of dollars 
from programs that American families rely on. And if these 
Draconian cuts go through, the burden will fall on cities, 
counties, and States.
    Here is a brief list of the programs set for elimination. 
The administration's budget would eliminate funding for the 
Community Development Block Grant. It would eliminate funding 
for the HOME Investments Partnership Program. It would 
eliminate Community Services Block Grants. And it would even 
eliminate the Low Income Home Energy Assistance Program. The 
president of the National League of Cities said President 
Trump's proposed budget, and I quote, ``threatens the safety 
and prosperity of cities around the country.'' I could not 
agree more.
    What does it all mean? Well, it means low-income American 
families may go without heat in the winter and air conditioning 
in the summer. It means that the elderly, children, and people 
with disabilities will not receive funding that is critical to 
these vulnerable populations. It means funding for afterschool 
programs will disappear. And it means that counties and cities 
will have to divert funds as they are forced to do more with 
less. It will negatively impact public health and safety across 
the country, and it will negatively impact budgets nationwide. 
Regardless of whether you live in rural areas or urban cities, 
you will be hurt by this budget.
    When these cuts to vital programs are proposed, they are 
packaged as cost-saving efforts. This isn't true. This is cost 
shifting to someone else, and the, quote, ``someone else'' is 
the most vulnerable families in our communities and States and 
local governments. I look forward to hearing about unfunded 
mandates facing local governments, but as part of this 
conversation, we must reject the President's massive budget 
cuts and the burden they impose on local and State governments.
    I understand as well as anyone how Federal mandates can 
pass costs down to State and local governments that impact the 
outlook for their budgets. We must distinguish between mandates 
that assure basic rights and protections and mandates that 
impose burdens. For example, there are mandates that ensure 
clean water. All we have to do is look at the crisis in Flint, 
Michigan, to understand what would happen if these protections 
were eliminated. As this committee found, the problem in Flint 
was not Federal overreach. It was that the Federal Government 
did not step in sooner to protect the citizens of Flint. And 
now an entire generation of children will be paying the price 
as they deal with the consequences of lead poisoning. The 
solution there is not just to eliminate the mandate; it's to 
provide adequate funding to comply with it.
    Then there are examples of mandates that burden State 
governments. It's no secret President Trump wants local 
governments to help with immigration enforcement. At the same 
time, however, his proposed budget looks to eliminate the State 
Criminal Alien Assistance Program, which provides 
reimbursements to State and local governments for incarcerating 
undocumented immigrants. This is a prime example of States 
being asked to do the Federal Government's job at their own 
expense. We cannot lose sight of why we are concerned about the 
burdens of State and local governments in the first place. It's 
about doing what is best for Americans everywhere. The funds at 
this level and the services provided are crucial to Americans 
across this country. We cannot tolerate irresponsible cuts to 
these needed programs.
    Again, thank you so much.
    And, Mr. Chairman, I yield back.
    Mr. Palmer. I thank the gentlewoman.
    And I also look forward to working with you. And I think we 
have a lot of opportunities, a lot of good work to do on this 
committee.
    The committee will hold the record open for 5 legislative 
days for any members who would like to submit a written 
statement.
    We will now recognize our panel of witnesses. First of all, 
the Honorable Wayne Niederhauser, president of the Utah State 
Senate, who represents the ninth State senate district in the 
great State of Utah. The Honorable Gary Moore, judge and 
executive of Boone County, Kentucky. Mr. Moore chairs the 
National Association of Counties' Committee on Environment, 
Energy & Land Use, and is the former chairman of the Opioid 
Epidemic Task Force.
    I got out of order, Mr. Davis. I would also like to 
recognize Senator Jim Davis of North Carolina's 50th district.
    Welcome today.
    The Honorable Jermaine Reed, councilman of the city of 
Kansas City, Missouri.
    And I am now pleased to recognize Congressman Connolly from 
the great State of Virginia to recognize our last witness.
    Mr. Connolly. I thank my friend, and I thank the chair and 
the ranking member for holding this very important hearing.
    In fact, when I was chairman of Fairfax County, from which 
Mr. McKay comes, I actually testified before this committee, 
when Tom Davis was chairman and Henry Waxman was ranking 
member, on unfunded mandates.
    Unfunded mandates particularly affect local government. In 
fact, local governments are on the receiving end not only from 
the Federal Government but from State governments. I notice we 
have two State senators, one of whom at least was in local 
government. But it is all too often the practice at the State 
level to, frankly, slough off burdens onto localities. I know 
that goes on in my home State of Virginia, and I know Mr. McKay 
is on the receiving end of that as a supervisor from Lee 
district in Fairfax County.
    Mr. McKay is a long-time friend of mine for over two 
decades. We worked together in a myriad of enterprises in 
transportation, in human services, on the Legislative Affairs 
Committee, which he now chairs, which I also used to chair. And 
I know he understands intimately the impact on the budget 
because he now chairs the Budget Committee for the Fairfax 
County Board of Supervisors, a county bigger than eight States. 
So, you know, he is dealing with really large issues, and it's 
a full enterprise government. So it's everything from human 
services to a bus fleet. And they know the impact of unfunded 
mandates, Mr. Chairman.
    And I have always said, as a local government official and 
now up here, if Congress thinks an idea is really worth doing, 
we should pay for it. It should never be a burden put on 
somebody else. No Child Left Behind is a great example. You 
know, maybe good intentions, but it was an unfunded mandate. 
And that was always my problem.
    So I welcome Mr. McKay being here representing a wonderful 
place, Fairfax County, and I thank him for being willing to 
spend his time and bring his expertise to this committee.
    Mr. Palmer. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth so help you God? Thank you. Please be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    The chair now recognizes Mr. Niederhauser for his 
testimony.

                       WITNESS STATEMENTS

         STATEMENT OF THE HONORABLE WAYNE NIEDERHAUSER

    Mr. Niederhauser. Thank you, Chairman Palmer, Ranking 
Member Demings, and committee members for this opportunity to 
speak to you today. I am Wayne Niederhauser, senate president 
of Utah. I represent Sandy, Utah, gateway to Snowbird and Alta 
ski resorts. It was snowing when I left home yesterday morning. 
I also have the privilege of working closely with the Council 
of State Governments, CSG, and I am here in that capacity 
today.
    On behalf of CSG and our leaders throughout the country, I 
want to thank you for convening this important hearing and for 
your leadership in exploring ways to improve relationships 
between the States and the Federal Government. Founded in 
1993--1933, excuse me, the Council of State Governments is the 
Nation's only organization serving all three branches of 
government. CSG is a region-based, nonprofit, nonpartisan 
organization that fosters an exchange of ideas that helps 
States shape public policy. Our new administration, the Vice 
President and President, have both voiced their strong support 
for strengthening relationships with State and local 
governments. The administration has issued several executive 
actions. While these executive orders are important steps 
towards keeping faith with the established principles of 
federalism, CSG believes Congress should follow suit and 
consider legislative action to codify processes that ensure 
adequate State input.
    We applaud Congresswoman Virginia Foxx for introducing H.R. 
50, the Unfunded Mandates Information and Transparency Act, 
which addresses UMRA's narrow coverage, exemptions, and 
loopholes. The committee understands the constitutional and 
foundational role the States play in our Federal system as 
outlined in the 10th Amendment, which laid the foundation for 
States to develop innovative ideas and policies to fulfill 
their roles as laboratories of democracy.
    The Utah legislature in this last session passed a 
resolution outlining several dozen areas of State 
responsibility that have been assumed by the Federal 
Government. That resolution will be attached to my testimony. 
State-based innovation is being stifled by a growing web of 
Federal policies and regulations, which come in the form of 
unfunded mandates. Unfunded mandates limit State and local 
flexibility to address more pressing local problems like crime 
and education. States are often forced to find money to pay 
these bills. In addition, these mandates may come in a one-
size-fits-all box that can shut down innovative efforts to 
address problems that involve unique local considerations. 
Among the most costly mandates are those involved in 
environmental compliance. The EPA and the Army Corps of 
Engineers' infamous rule to establish an expansive definition 
of the Waters of the United States is a prime example of which 
this committee is well aware. A smaller example is the 
groundwater rule that requires us to manage a new violation, 
including site inspections, which forces us to hire new 
employees that cost us $240,000 a year.
    The Perkins Program from the Department of Education is my 
final illustration. Utah receives a grant of approximately $12 
million to support State and administrative costs, professional 
development. In return for this $12 million, we are locked into 
a maintenance of effort agreement that now costs the State $241 
million. It is not a complete loss of money. Some of those 
things we would have done regardless. But the lack of 
flexibility comes at a cost. I am attaching a summary of our 
Perkins analysis. Goals behind Federal mandates are often 
admirable, but local governments have admirable goals also, 
more important to citizens, more likely to be effective, and 
less expensive. Along with the cost of financing these new 
mandates, the majority of Federal regulations have been enacted 
with limited or no input or consultation from local 
governments. This is what led CSG to start a multiyear 
initiative focused on improving the role of States in the 
Federal system. I have included the full list of principles in 
my testimony.
    One size does not fit all. Local governments should be 
encouraged to provide unique local solutions. Stronger 
coordination and communication will help reduce conflicts, 
which far too often end up in court and come with enormous 
economic and opportunity costs. Cooperative federalism requires 
the Federal Government to work in good faith with the States as 
equal partners. The broken system demands Congress to implement 
changes to the process.
    Navigating this relationship between the Federal Government 
and the States and local government--I believe, with your 
leadership--will improve. Again, I thank you for this 
opportunity to appear before you today and look forward to your 
questions.
    [Prepared statement of Mr. Niederhauser follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. I thank the gentleman for his testimony.
    The chair recognizes Senator Davis from North Carolina.

              STATEMENT OF THE HONORABLE JIM DAVIS

    Mr. Davis. Good morning. Thank you, Chairman Palmer and 
Ranking Member Demings and members of the subcommittee. I am 
delighted to be here today. And I appreciate the opportunity to 
share the impact of unfunded mandates, or what I call federally 
imposed burdens, on North Carolina's State and local 
governments. I am here to provide examples of compliance 
challenges and their associated costs from such mandates.
    I serve North Carolina's district 50, which covers the 
seven westernmost counties in the State. Collectively, these 
counties contain almost 900,000 acres of Federal land, large 
tracts removed from development opportunities and the property 
tax base. As a result, these counties face significant 
challenges in their ability to provide critical services to 
their citizens. The added costs of compliance with unfunded 
mandates exponentially stress these already struggling local 
governments. On the opposite side of my State, the U.S. Army 
Corps of Engineers dredges Federal channels and disposes of 
dredged materials in Federal waters offshore. Coastal counties 
seeking resources to renourish beaches and to repair from 
coastal storms often have need of dredged sand. But before any 
restoration can begin, managers of renourishment and repair 
projects must navigate the federally imposed bureaucracies of 
two separate agencies. First, they must secure Federal lease 
from the Bureau of Ocean Energy Management. Then they must work 
through the National Environmental Protection Act sediment 
sampling process for approval to extract sand from Federal 
waters and place it back on the beach. Delays in these 
processes are the norm and force local governments to create 
funding by increasing sales and property taxes on our citizens.
    Our North Carolina workforce, and in particular our 
citizens with disabilities, along with our North Carolina 
Division of Vocational Rehabilitation and its contracted 
providers, are being directly and deleteriously impacted by 
numerous Federal unfunded mandates associated with rules and 
regulations promulgated in section 4 of the Workforce 
Innovation and Opportunity Act. These mandates include 
extension of service obligations. DVR programs are now 
responsible for services to youth with the most significant 
disabilities starting at age 14 for up to 4 years, with no 
additional funding and no previous responsibility. Funding must 
come from either North Carolina taxpayers or reduction or 
elimination of services for other citizens.
    New mandated allocation of States' DVR Federal grant. 
Fifteen percent of the total DVR Federal grant money is now 
mandated for a new responsibility to provide preemployment 
transitional services to youth starting at age 14. The 15-
percent requirement was not graduated for infrastructure ramp 
up, causing States to forfeit Federal funds. With forfeiture of 
funds, no additional funding, and no previous responsibility, 
the money must come from North Carolina taxpayers or a 
reduction or elimination of services.
    While the legislative intent of the Workforce Innovation 
and Opportunity Act was intended to benefit our workforce and 
citizens with disabilities, it was in effect a regulatory 
overreach, an attempt to legislate through rulemaking, which 
resulted in noble intentions becoming unfunded mandates, 
ungrounded in reality. The North Carolina Department of 
Transportation is rife with examples of the burdens of unfunded 
Federal mandates. NCDOT is responsible for all modes of 
transportation in my State. The NCDOT also oversees and helps 
expand economic opportunities through the North Carolina ports 
and North Carolina Global TransPark. Federal unfunded mandates 
impact States that support passenger train services delivered 
by providers other than Amtrak. There is no Federal funding to 
support the additional costs associated with this designation. 
And the total financial impact to North Carolina is over a 
million and a half dollars per year. Due to a change in the 
Federal definition of ``passenger ferry,'' base appropriations 
for North Carolina's ferry system went from 22 million in 2007 
to over 31 million in 2008.
    And I could list many other Federal mandates that caused 
our State to either increase taxes or reduce services. But I 
would like to conclude my testimony with this compelling 
example from a business owner in my district. His experience is 
at best a sobering commentary on compliance challenges and 
associated costs from unfunded Federal mandates. He was told by 
a compliance officer charged with enforcing EPA guidelines that 
his boiler system was compliant with current emissions of 
arsenic; however, he would be required to reduce the emissions 
from 12 parts per million to 4 parts per million. After 
spending over $200,000 on consultants, lawyers, and other 
experts, this business owner learned two things. One, the 
technology didn't exist to reduce it to 4, and secondly, 
arsenic occurs naturally in our air at 12 parts per million. 
Rather than invest $200,000 on needed equipment, employee 
raises, or profit, the business owner spent his money on 
efforts to comply with the impossible. Where I come from, 
$200,000 is real money.
    I commend my testimony to you and welcome your questions. 
Thank you.
    [Prepared statement of Mr. Davis follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. The chair recognizes the gentleman from 
Kentucky, Mr. Moore, for his testimony.

             STATEMENT OF THE HONORABLE GARY MOORE

    Judge Moore. Chairman Palmer, Ranking Member Demings, and 
distinguished members of the committee and subcommittee, thank 
you for holding today's hearings on unfunded mandates.
    I would also like to say hello to Kentucky Representative 
Comer and, if he is able to join us later, my Congressman 
Massie, Thomas Massie.
    My name is Gary Moore, and I am the elected county judge 
executive in Boone County, Kentucky, and I am honored to 
provide testimony today on behalf of the National Association 
of Counties to share how we can strengthen the 
intergovernmental consultation process. This issue is so 
important to counties nationwide as we work to balance our 
budgets and provide critical services to our constituents, 
including public safety, health services, fire and rescue, 
infrastructure development, and much more.
    As this committee examines the impacts of unfunded 
mandates, I would briefly like to share a few points for your 
consideration. First, the regulatory consultation process 
between Federal agencies and State and local governments needs 
to be strengthened. In 1995, Unfunded Mandates Reform Act, 
UMRA, was instrumental in reducing unfunded mandates in Federal 
legislation for State and local governments. In fact, CBO 
periodically and proactively brings together NACo and other 
State and local organizations to discuss proposed legislation 
that could result in unfunded mandates. However, the framework 
it established for the regulatory consultation process has been 
less effective. It tasked each agency with developing their own 
internal process, which we found to be inconsistent across and 
within agencies. We often find that the agencies just want to 
check a box instead of having meaningful discussion with us as 
intergovernmental partners before and throughout the rulemaking 
cycle.
    We are encouraged that Congress has been working on 
legislation to strengthen this process and hopefully curb the 
number of unfunded mandates. For example, H.R. 50, UMITA, would 
increase transparency about the cost of unfunded Federal 
mandates to State and local governments. Similarly, H.R. 1009, 
the OIRA Insight, Reform, and Accountability Act, would 
increase levels of consultation and collaboration between 
agencies and State and local governments.
    Time and time again, we see major Federal regulations like 
Waters of the U.S., the ozone rule, and the Department of 
Labor's overtime rule finalized with little or no consultation 
with State and local governments, even though these regulations 
have major practical and financial implications for counties.
    Second, counties face mounting fiscal stress from unfunded 
mandates. Counties must operate balanced budgets. We often do 
not have the flexibility in our budgets to pay for new Federal 
requirements. In fact, 45 States already impose limitation on 
counties' ability to raise additional revenue. In my home State 
of Kentucky, the burden of an ever-growing list of Federal and 
State mandates has resulted in reduced funding for county 
jails, inmate health care, infrastructure maintenance, while 
other funding limitations are affecting our county-run 911 
system. Federal policies and programs developed with only the 
impact on the Federal Treasury in mind put the ability of local 
governments to fulfill our responsibilities at risk.
    Finally, our system of federalism requires a strong 
Federal, State, and local partnership to achieve our shared 
goals. Unfortunately, our intergovernmental partnership is 
often out of balance as Federal agencies impose one-size-fits-
all approaches, taking away local decisionmaking. When the 
Federal agencies do engage in meaningful consultation, they are 
better able to develop practical rules that accomplish our 
shared goals.
    Mr. Chairman, thank you again for the opportunity to 
discuss these issues and the major impact of federally imposed 
burdens on State and local governments. In short, we hope 
Congress will implement a consultation process across the 
Federal Government that includes working with State and local 
partners early and often. I am happy to answer your questions. 
Thank you.
    Mr. Palmer. I thank the gentleman for his testimony.
    The chair recognizes Mr. Reed for his testimony.

            STATEMENT OF THE HONORABLE JERMAINE REED

    Mr. Reed. Thank you. And good morning to you, Mr. Chairman, 
and the ranking members and the members of this committee.
    I am Jermaine Reed, a member of the city council from 
Kansas City, Missouri. And it's an honor to be able to join you 
on behalf of National League of Cities, the oldest and largest 
organization representing American cities and towns. City 
leaders, as you have indicated, are on the front lines of 
almost every issue. From education, health care, environment, 
cities and towns are making major strides in these areas 
because we are in the business of finding solutions to the 
challenges that face our communities.
    But one of the biggest barriers to our progress is the 
burden of unfunded mandates. All city leaders face tough budget 
choices in what services we are able to provide, but often the 
added burden of unfunded mandates is the last straw for 
straining local budgets. We at the National League of Cities 
are opposed to unfunded mandates. As has been indicated, with 
the release of the President's budget proposal, the concerns on 
whether the Federal Government can reduce or can be eliminated 
without shifting the costs to local governments has never been 
greater: the across-the-board proposed cuts to critical funding 
for programs and services in cities, the new unfunded mandates 
it would create. And we urge Congress to reject these cuts. Our 
constituents depend on the success of our Federal-local 
partnership to ensure that government services are affordable, 
reliable, and also high quality. To achieve that, I urge the 
committee to work to eliminate unfunded mandates and other 
regulatory burdens, support local flexibility and control to 
avoid taking a one-size-fits-all regulatory approach. The 
partnership between local, State, and Federal Government works 
best when our unique powers and responsibilities are clearly 
defined and respected. Local governments' biggest duty is to 
provide services, solve day-to-day problems, and respond 
directly to the needs of our citizens.
    As our research at the National League of Cities shows, 
city budgets are still recovering from the Great Recession. The 
country's municipal workforce is still at 58,000 jobs below the 
peak in the mid-2000s, and we are still meeting the needs of 
our citizens, but there certainly is a very little to--margin 
of error. In my hometown of Kansas City, we treat every budget 
approval process as an opportunity to reexamine with our 
constituents what their needs are to provide. When we are faced 
with unfunded mandates, my colleagues and I are forced to 
disregard the will of our voters and divert local tax dollars 
to meet the standards imposed by Congress.
    As explained in my written testimony, the unfunded mandates 
that we are facing include regulations from the Clean Water 
Act, the Clean Air Act, and the Americans with Disabilities 
Act. And right now, I would like to focus on the Clean Water 
Act and what it takes for cities our size to comply with 
unfunded mandates it's proposed. In 2009, in order to meet the 
requirements under the Clean Water Act, Kansas City developed a 
25-year plan called the Smart Sewers Program. The program 
includes 101 separate projects and comes at a cost of nearly $5 
billion, financed entirely by wastewater fees. In order to fund 
these improvements, the city was forced to impose double-digit 
increases on our residents each year for the past 7 years. The 
average monthly bill has more than doubled, from $48 in 2009 to 
nearly $101 today, with major burdens on our elderly and low-
income citizens. In addition to the Smart Sewers Program, the 
city has been mandated to invest in over $800 million in 
wastewater systems upgrades to meet the population discharge 
and regulation by the year of 2035.
    Now let me be clear that these programs are important and 
include many benefits to our community. But without the 
adequate funding and no input from local elected officials, 
they leave our city helpless to meet the Federal needs and to 
balance our local budgets. Cities need to have a seat at the 
table during the rulemaking process to ensure that local 
consideration and consequences are taken into account.
    As I stated in my written testimony, I would like to 
commend EPA for the significant improved consultation process 
with State and local governments. And I urge all Federal 
agencies to learn from their progress. More importantly, on 
behalf of the National League of Cities, I urge this committee 
to improve the Federal-local consultation process in a way that 
local government input and consideration in rulemaking is made. 
This can be achieved through the consistent consultation 
guidelines across Federal agencies and the low consultation 
thresholds, as the EPA example has shown. With more 
opportunities for local officials to participate in the 
rulemaking process, we can eliminate unfunded mandates at an 
early stage and give local governments the flexibility to 
balance their budget, provide high-quality services, and 
respond to our constituents' needs.
    On behalf of the National League of Cities and the City of 
Kansas City, Missouri, thank you for the opportunity to submit 
this testimony on this critical issue, and I look forward to 
your questions.
    [Prepared statement of Mr. Reed follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. Thank you for your testimony.
    The chair now recognizes Mr. McKay for his testimony.

             STATEMENT OF THE HONORABLE JEFF MCKAY

    Mr. McKay. Good morning. Thank you, Chairman Palmer, 
Ranking Member Demings, Representative Connolly, members of 
this subcommittee. Thank you for the opportunity to testify 
today.
    My name is Jeff McKay, and I serve as chairman of both the 
Budget and Legislative Committees on the Fairfax County Board 
of Supervisors. I also serve on the Board of Directors of the 
Virginia Association of Counties. Many of you are probably 
familiar with Fairfax County, from Tysons Corner mall to the 
Springfield Town Center to Wolf Trap to Mount Vernon, we have 
transformed from a rural farming community into the largest 
jurisdiction in the Washington, D.C., area and the largest 
jurisdiction in the Commonwealth of Virginia with a highly 
diverse population of over 1.1 million people. We hold a 
coveted AAA bond rating and among the most highly educated 
populations in the Nation.
    We have a strong partnership with the Federal Government, 
with 54.7 billion in total defense spending in fiscal year 
2014. Nearly 30,000 defense personnel are located in Fairfax 
County, Virginia, in addition to many other Federal employees. 
We value the close relationship we have with the Federal 
Government and are even seeking to expand it with the potential 
relocation of the FBI headquarters in Springfield, Virginia. We 
very much are your partners, and we are proud of that 
relationship.
    Though Fairfax is often described as a wealthy community, 
we have many individuals and families who are struggling, 
including approximately 70,000 people living in poverty. Nearly 
51,000 students in our public school system qualify for free 
and reduced-price lunch. Only five school divisions in Virginia 
have more total students than we have on just free and reduced-
price lunch in Fairfax County.
    As has often been said, local government is the level of 
government that is closest to the people. We are where the 
rubber hits the road. Unfortunately, we are also the level of 
government with the fewest revenue options, making it even more 
difficult to address an increasing list of Federal and State 
mandates. In Fairfax County, we estimate the county spent 
approximately $1.4 billion on Federal and State mandates in 
fiscal year 2016, with a net fiscal impact of $834 million.
    Of course, we often support the policy goals the mandates 
seek to achieve, but mandates often prescribe not only we must 
do, but how we must do it, though they rarely include 
sufficient funding to carry out those requirements. In 
Virginia, localities are even more limited than in many other 
States, as Virginia has a strict adherence to something called 
Dillon rule, a doctrine of limited authority for local 
governments. As a result, we have very limited revenue 
authority, leading to an overreliance on property taxes. 
Virginia also provides less funding to localities than many 
States, ranking 38th nationally in State per-pupil funding for 
K-through-12 education.
    The challenges we face would be exacerbated if the recent 
budget proposal by the Trump administration were enacted. 
Dramatic reductions in Federal operations could lead to 
dramatic consequences for us. A recent study by George Mason 
University illustrates them. A decrease of 20,000 to 24,600 
Federal jobs in the D.C. region, removing 2.3 billion to 2.7 
billion in Federal salaries from our economy. A decrease in 800 
million to 1.2 billion in Federal procurement spending in our 
region.
    The Trump budget proposal also raises concerns about 
critical programs and services we provide with Federal funding, 
eliminating the Community Development Block Grant and HOME 
Program, funding restoration for the Chesapeake Bay, and 
funding for Impact Aid in our schools, which partially offsets 
the costs of federally connected children in our school system. 
That program is already significantly underfunded in Virginia. 
Consideration of such massive cuts is alarming. As we point to 
many successes where Federal contributions were integral, our 
transportation proposed to be reduced by 13 percent, some 
excellent projects that have happened in Fairfax County could 
not happen under this budget proposal.
    As I mentioned earlier, most mandates come with 
insufficient funding, but they are also overly prescriptive. If 
such mandates were eliminated, we in Fairfax County might 
address the same issues but in a totally, completely different 
way. We would still need appropriate contributions from our 
Federal and State partners. We also need to be empowered with 
the tools to diversify our revenues and strike the appropriate 
balance for our communities.
    Conversely, some requirements must be maintained, and it is 
correctly the Federal Government's role to set priorities for 
overarching issues of national importance. Localities are 
struggling to meet increasing needs with decreasing revenues. 
In Fairfax County, we continue to try to find creative 
solutions to problems, to leverage the funds that we have, but 
demands are beginning to outstrip our means. We already do more 
than is required in areas the State does not provide essential 
funding and services. We cannot also step into the Federal 
Government's shoes and backfill the substantial loss of Federal 
funds. Keep in mind that, unlike the Federal Government, we are 
required by Virginia law to annually balance our budget, a task 
made more difficult by Federal underfunding and unfunded 
mandates from both the State and Federal level.
    Thank you again for the opportunity to testify on behalf of 
Fairfax County, Virginia, today, and I look forward to your 
questions.
    [Prepared statement of Mr. McKay follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. I thank the gentleman for his testimony.
    I will now recognize myself for 5 minutes for questions.
    Senator Niederhauser, I think it has been consistent in 
what we have heard is the lack of coordination between the 
Federal Government and State and local government in regard to 
these unfunded mandates. What kind of assurances do the States 
and local governments need that the Federal Government will 
seriously consider their input?
    Mr. Niederhauser. I think that improving the Unfunded 
Mandates Reform Act would be a great place to--I think that's 
one area that could be worked on. The idea that there is 
noncompliance with that in the administration I think is a 
problem. Reaching out to organizations like the Council of 
State Governments, National Council of State Legislatures. 
There's other organizations like ALEC. These are all 
legislative organizations that will give some really good input 
and State view on issues.
    And then I think that there ought to be a question asked 
before you go down the road on any mandate whether that is 
something the Federal Government ought to be addressing or the 
State Government. Let me just give you an example. It was 
probably about 2008-2009; I was chair of the Health System 
Reform Task Force in Utah. And we were going down the path of 
health reform. We were one of the first States to create an 
exchange. Utah, a red State, we created an exchange, a health 
exchange. We were already on this path, and then we felt like 
we were preempted by the ACA, the Affordable Care Act. And then 
we were playing defensive, trying to figure out what that meant 
for us. And so I think there ought to be that question asked 
before you even begin the discussion of some laws and 
especially regulations, because I think what happens is these--
the regulators kind of lose--take laws beyond what they were 
ever intended to address. And Congress, I believe, needs to be 
more involved in making those decisions rather than an 
administration so that we have some more consistency and we 
have the voice of the people involved.
    Mr. Palmer. I want to come back to that. But just, in 
general--and each one of you can answer yes or no, or you can 
elaborate a little bit if you would like--but based on your 
experiences, do you believe the unfunded mandate regulatory 
act's requirement for consultation between State and local 
governments is effective in its current form? I think you have 
already answered that, that it needs to be reformed. Mr. Davis?
    Mr. Davis. I agree that it does need to be reformed. But I 
think a lot of it has to do with the cost associated with it 
and rather than the product. I think it is very important that, 
when we look at these mandates from the Federal Government, 
that we are looking for a goal, and we are not just 
concentrating on how much it costs us to get this goal.
    Mr. Palmer. Mr. Moore?
    Judge Moore. Mr. Chairman, I believe that UMRA has worked 
well on the legislative side. Where it has not worked well is 
on the regulatory side. We, as local and State officials, 
elected officials, if we are involved in the process on the 
regulatory side, we can improve the process. We can often I 
believe avoid some of the pitfalls we see with some of the 
bureaucracy that we see from the Federal Government. So I would 
suggest that the successes from the legislative side be more 
strictly applied to the regulatory side.
    Mr. Palmer. Mr. Reed?
    Mr. Reed. Mr. Chairman, I echo the comments of my fellow 
witnesses. You know, we are asking that, if you have a seat at 
the table in the beginning, then it will really help eliminate 
some of the costs that we are finding with our citizens, who 
are bearing the burden of a lot of the mandates that we have to 
pay.
    As I indicated in my testimony, you know, from 2009 and the 
water bills that continue to be increased, you know, if there 
was a way that we could actually figure out ways to pay for 
these items before we actually have to increase the budget, it 
would help eliminate a lot of the burden that many of our 
citizens are experiencing.
    Mr. Palmer. Mr. McKay?
    Mr. McKay. Thank you. I associate myself with the comments 
of Mr. Moore as well. I think local government's seat at the 
table is critical. We are closest to the people. And in terms 
of interaction with the Feds and State, you know, it's very 
easy for the States to take Federal unfunded mandates and just 
push them right down to the county level. And so that's 
certainly the process that takes place in Virginia. And, you 
know, there doesn't seem to be the consultation at all with 
local governments in terms of what impact that has; just a 
simple legislative act by the States to push down to the lowest 
level.
    Mr. Palmer. There is something that is consistent in all of 
your testimony and I think evident in your answers to that 
question. That is, is that the process would work much better 
if we left the implementation of the regulations in the hands 
of State and local government, even to the degree of perhaps 
sending the funding down with the regulations. For instance, 
the EPA mandates. They are writing the regulations, but 
they're--I think in Mr. Niederhauser's testimony--I think it 
was your testimony. You said 96.5 percent of the environmental 
regulations are implemented or administrated at the State 
level. So it seems to me it would make more sense not only to 
have this collaborative process where they are getting input 
from you, but if you are going to do--if the mandates, the 
regulations need to be implemented, that they allow you the 
flexibility to implement them. Does that make more sense to 
you?
    Nodding is appropriate, but for the record, that indicates 
an affirmative to the question.
    I want to come back to some of this and some other areas as 
well. But at this point, the chair recognizes the ranking 
member from Florida, Mrs. Demings, for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And, again, to our witnesses, thank you so much for being 
with us today as we discuss this very important topic.
    Mr. McKay, Fairfax County, like many other counties across 
the country, relies on Federal funding for its residents. In 
your testimony, you did express concern, though, about 
President Trump's budget. How would his proposed cuts impact 
Fairfax County? If you could just elaborate a little more on 
how you would be directly impacted.
    Mr. McKay. Sure. I appreciate the question. First, there's 
impacts to actual programs that I mentioned in my testimony, 
significant impacts. As I mentioned, there are 70,000 people in 
Fairfax County living in poverty. So obviously reductions in 
the HOME Investment Partnerships, CDBG funding are significant. 
In terms of our school budget, the reductions in Impact Aid, 
which is already grossly underperforming what is actually 
needed to educate our students in Virginia, would be a huge hit 
for us. And funding for the restoration of the Chesapeake Bay 
is in jeopardy.
    I think, though, fundamental to your question, what 
concerns us the most is what's happening with our Federal 
workforce. So there are a lot of Federal programs that would 
affect Fairfax if they are not funded, but as I mentioned, we 
are home to a significant Federal employee population. And some 
of the things that are happening under the Trump administration 
with regard to Federal employee freezes and things of that 
nature have a significant economic effect on the residents of 
Fairfax County, Virginia. So we are one of the jurisdictions 
that has to watch this from multiple levels, not just the cuts 
to programmatic things and things that our residents rely on, 
but also cuts to, you know, the Federal workforce and the 
economic impacts of those.
    We also are very concerned about some of the impacts to 
transportation. We are sitting here in the Nation's Capital, 
many of your staffs rely on Metro to get to and from work. And 
without Federal support of Metro, we remain very concerned 
about the funding that's going to be necessary to sustain the 
Metro system. So we're watching this from many different 
angles, not just programmatic, but also in terms of the impact 
to the finances of the very people that live in our county.
    Mrs. Demings. If the budget cuts did move forward, how do 
you believe State and local governments would be able to make 
up the difference?
    Mr. McKay. I don't believe that we could, to tell you the 
truth. We in Fairfax long have a history, unfortunately, of 
having to make up where the State and Federal Governments do 
not adequately fund programs. But we cannot sustain that. As I 
mentioned in my testimony, we do not have the revenue sources 
at the county level to be able to expand. We are left with 
property taxes, which is a very regressive tax on people in a 
very high-income but high-cost-of-living area. And so I don't 
believe that we can sustain the type of Federal cuts that are 
in this budget, and I don't think that local governments will 
be able to make that amount up.
    Mrs. Demings. Thank you. Judge Moore, your organization, 
the National Association of Counties, supports the Low Income 
Home Energy Assistance Program. Is that correct?
    Judge Moore. The association, I believe, does, yes.
    Mrs. Demings. President Trump's proposed budget calls for 
the elimination of that program. Is that correct?
    Judge Moore. I am not familiar with that component.
    Mrs. Demings. So you believe the association does, but you 
do not have any direct knowledge that the association that you 
are a part of supports that program?
    Judge Moore. The association supports the program. I am not 
familiar with the budget cut.
    Mrs. Demings. Okay.
    Judge Moore. What I am here to talk about really is the 
unfunded mandate process.
    Mrs. Demings. What I am here to talk about, since we are 
talking about unfunded mandates, are the proposed cuts by the 
Trump administration also is taking money away from local and 
State and county governments. Are you familiar with the Low 
Income Home Energy Assistance Program?
    Judge Moore. I am.
    Mrs. Demings. Okay. So let's say that that program was 
eliminated. Your association, I believe you said your 
particular county has seen tremendous growth. Is that correct? 
Tripled over the last 30 years. How do you feel a cut to that 
program will directly impact members that you represent as a 
part of the association?
    Judge Moore. If I answered this as my county and the people 
that I am elected to represent, I believe that, in that 
particular case, we would be called upon as local government to 
either find a way to fund the program or the program would go 
away.
    What we do object to is a mandate that says we have to 
continue the program without funding.
    Ms. Demings. What would be some alternatives for you to 
find a way to fund that particular program?
    Judge Moore. As my colleagues have testified today, local 
governments are very limited in how we can raise revenue. So it 
would be very difficult.
    Mrs. Demings. Thank you.
    I am out of time. Thank you, Mr. Chairman.
    Mr. Palmer. The chair now recognizes the gentleman from 
Kentucky, Mr. Comer, for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    And I want to recognize Judge Moore. It is good to see you 
here, Judge. He represents and has been the leader in Boone 
County for a long time. And there are 120 counties in Kentucky, 
and Boone County consistently is one of the fastest growing 
counties in the State. And you have done a great job there 
overseeing tremendous growth. And Boone County, as I have said 
many times, is a real economic development success story in 
Kentucky.
    Judge Moore, you discussed in your testimony the importance 
of early consultation with local governments in the Federal 
rulemaking process and note that in fact the EPA outright 
refused to consult counties prior to the proposed Waters of the 
U.S. rule's publication despite repeated requests to do so. My 
first question, did the EPA and Army Corps provide a reason as 
to why they did not consult with counties on this rule?
    Judge Moore. No, they did not give us any reasons.
    Mr. Comer. Would this rule have imposed a significant cost 
on counties and local stakeholders?
    Judge Moore. Absolutely. Probably the best example of that 
is that we also are under a consent decree, as some others have 
testified, with combined sewer overflows, sanitary sewer 
overflows. And we are continuing to raise our sanitary sewer 
and storm water fees substantially to be able to meet those 
requirements. We are nearing the affordability threshold of the 
amount of increase that we can put upon our ratepayers. So, if 
we were at the table consulting with the Corps and with Federal 
agencies during this process, we would have some potential 
solutions on how to deal with that in a more efficient way.
    Mr. Comer. Good. You mentioned the new administration has 
started a State and local consultation process on this rule. 
Have you been able to provide feedback to the EPA and Corps 
through this process?
    Judge Moore. I did meet with our State secretary of the 
environment and energy cabinet who has a regular dialogue with 
the Federal agencies. And we have talked about some potential 
solutions. One example would be that we have a payment-in-lieu 
program when we are developing new property if we impact a 
wetland or a stream. Those funds are not used efficiently. And 
environmentalists as well as others would agree that there is a 
better use for those funds to use those to help eliminate 
combined sewer overflows and sanitary sewer overflows rather 
than the projects that are being done now. We are hopeful that 
our State secretary of environment, working with the Federal 
agencies, will be able to help us in that situation.
    Mr. Comer. All right. Have the agencies indicated what they 
intend do with the feedback that they are supposed to be 
getting?
    Judge Moore. Not that I am aware of.
    Mr. Comer. All right. Next question, Judge Moore, you also 
shared that the Department of Labor did not adequately consult 
with State and local governments to assess the impact of its 
recent overtime rule. Did the agency provide any justification 
for its failure to cooperatively consult with counties on this 
rulemaking?
    Judge Moore. No, not that I am aware of.
    Mr. Comer. Do you believe it's a good use of your time as 
an official of local government to have to make repeated 
requests for meaningful consultation every time the Federal 
Government decides to act?
    Judge Moore. I have a lot of other things I would prefer to 
do. And it would be refreshing to see elected officials 
involved in that process rather than non-elected.
    Mr. Comer. Right. Well, hopefully, help is on the way. I 
believe this new administration has a more commonsense approach 
to doing business, and hopefully, we can address the unfunded 
mandate issue that you are always faced with and the Federal 
Government. And I know that there are a lot of issues that each 
of you that testified have, and hopefully, we can work together 
to try to bring some relief for the great jobs you are doing in 
each of your States.
    Thank you. I yield back.
    Mr. Palmer. The chair now recognizes the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chair, and I thank your courtesy.
    Just for another point of view, I don't know that, at least 
where I come from, we think help is on the way coming from this 
new administration. Maybe that's a welcome message in Kentucky. 
It's not a welcome message in Virginia. Because we are looking 
at the Trump budget, as Mrs. Demings pointed out, and it looks 
to me like it is a road map for a whole bunch of additional 
unfunded mandates.
    So, for example, Mr. McKay, if we completely defund the 
Chesapeake Bay Commission, do the requirements to clean up the 
bay go away?
    Mr. McKay. They do not.
    Mr. Connolly. And isn't it true that already the 
overwhelming financial burden on the cleanup is on the local 
and State governments?
    Mr. McKay. It is.
    Mr. Connolly. So the little piece the Feds provide 
financially is that commission. So, if it goes away, we lose 
that guidance; we lose that assistance. But the burden remains 
on all of the States in the Chesapeake Bay estuary. Is that 
correct?
    Mr. McKay. Absolutely correct.
    Mr. Connolly. That's a pretty expensive mandate to try to 
clean up the Chesapeake Bay. And, of course, we face the same 
thing on the Great Lakes and Puget Sound. Their respective 
commissions are also zeroed out in this budget--that apparently 
is--help is on the way. I don't know what help that would be in 
that regard.
    But CDBG, Community Development Block Grants, to local 
governments. Mr. Reed, are they helpful at all, CDBG?
    Mr. Reed. They are extremely helpful. And I will tell you 
that a number of our community organizations depend on them. If 
you are thinking about Meals on Wheels or you are thinking 
about senior citizen homes or what have you, they are dependent 
on CDBG. And we have seen significant decreases in CDBG in the 
past several years. And it is one of those Federal funds that 
many of those organizations who continue to come to us every 
year as we are looking for appropriations for that, asking for 
more, and they are doing more with less.
    Mr. Connolly. So, again, you have got both State and 
Federal mandates in terms of the provision of mental health, 
disabilities, senior citizen needs and the like. They don't go 
away----
    Mr. Reed. No.
    Mr. Connolly. --even if the Federal funding does. Is that 
correct?
    Mr. Reed. Correct.
    Mr. Connolly. Mr. McKay, I noticed Kentucky, of course, did 
expand Medicaid pursuant to the Affordable Care Act. Virginia 
did not. And so we have got sort of a healthcare mandate 
offering funding, but the State chose not to accept the 
funding. So it is in some ways the State of Virginia choosing 
politically to undertake an unfunded mandate, isn't it?
    Mr. McKay. That is correct. And Fairfax County has strongly 
supported the expansion of Medicaid for the very fundamental 
financial reasons that you mentioned. It would be a significant 
influx of funding to the Commonwealth of Virginia to provide 
health care for people who need it but also to relieve the 
burdens that local governments face to provide some of that 
same health care without any reimbursement today.
    Mr. Connolly. Transportation. So the Federal Government, as 
you pointed out, has a big stake in the future of Metro since a 
third of the Federal workforce uses Metro to get to work every 
day. And I guess 40 percent of the total ridership every day is 
Federal employees. And if Metro shuts down, so does the Federal 
Government. There are four members to the compact, three of 
which provide operating subsidies. Is that correct?
    Mr. McKay. That is correct.
    Mr. Connolly. So the fourth one, who is that that does not 
provide any operating subsidies?
    Mr. McKay. The Federal Government.
    Mr. Connolly. And does the Federal Government nonetheless 
provide oversight and mandates to Metro in terms of how it 
operates, safety, things like that?
    Mr. McKay. They do all of the above. And they even have 
seats on the Metro Board of Directors.
    Mr. Connolly. And, in fact, recently, this administration, 
help-on-the-way administration, actually withheld Department of 
Transportation funding for lots of other unrelated transit 
projects throughout the Commonwealth of Virginia because of an 
unrelated issue having to do with Metro and the oversight, 
safety oversight trilateral commission. Is that correct?
    Mr. McKay. That is correct.
    Mr. Connolly. That's interesting. So, at the end of the 
day--one final thing, a lot of us talk loosely up here about 
State and local like they are the same. And, of course, we know 
they are quite different. And a lot of us talk loosely, 
especially those of us who have no experience in local 
government, about ``let's just block-grant everything, send it 
to the State, and their tender mercies will see to it that 
localities do well.'' What's the problem with that thinking 
from your perspective vis--vis Richmond?
    Mr. McKay. There are significant problems with that, some 
of which I mentioned in my testimony. As the Dillon rule 
states, the hands of the counties are tied in terms of how they 
can generate revenue to pay for some of these things. Richmond 
has a very different political philosophy than Northern 
Virginia in terms of our Federal partners and how these 
programs trickle down at the local level. Richmond is very good 
at just transferring the authority and the requirement to do 
certain things to local governments but not sending the funding 
attached to it.
    More importantly, these things are very prescriptive. And 
so, in many cases, they are laudable goals; there are things we 
would certainly do at the county level, and we would do them a 
whole different way than the prescriptive way. The way we are 
told how to do these things is particularly concerning. But our 
relationship with the State in Virginia is unique. As a Dillon 
rule State, our hands are tied in terms of raising additional 
revenue. And the State politically and philosophically 
disagrees with us in many cases. And the one you gave with 
Medicaid expansion is probably the most egregious one. We are 
losing, as a county, millions of dollars in Federal support 
because of the State's inability to support the expansion of 
Medicaid. So they essentially have our counties in financial 
shackles.
    Mr. Connolly. Thank you.
    And, Mr. Chairman, thank you for your courtesy.
    Mr. Palmer. I thank the gentleman. It's interesting the 
direction that the hearing has gone. We've gone into 
federalism. We've gone into the budget, and now we've gotten 
into State constitutions and home rule and the Dillon rule. So 
certainly an interesting conversation.
    The chairman will now recognize the vice chairman of the 
subcommittee, Mr. Grothman of Wisconsin, for 5 minutes.
    Mr. Grothman. Thank you.
    We anticipate a big infusion in infrastructure later this 
year, and I assume a lot of that will be sent to the States and 
local units of government. It's been my experience that 
frequently highways or other infrastructure projects become 
much more expensive once Federal money is involved. I'm not 
going to ask you to deal with Davis-Bacon, because we've all 
heard about Davis-Bacon. But could any of you comment on 
perhaps anecdotal evidence or other examples in which you feel 
you've had to spend more for roads or other projects once 
Federal money is involved?
    Judge Moore. Mr. Vice Chair, I could address a portion of 
that. In Kentucky, recently, prevailing wage was repealed. I 
know that the Federal level did not--has not----
    Mr. Grothman. Just don't deal with Davis-Bacon.
    Judge Moore. Okay. I won't deal with that.
    Where we could see improvement is in the NEPA process. Time 
is money. And in a growing community like ours, getting a 
project to completion is very important. We have to wait, 
usually, a season in the fall for the leaves to leave the trees 
so that we can do an assessment for the Indiana bat, for 
instance. That delays us a full season in many cases.
    I do believe there are items within the NEPA process where, 
if local governments were involved with the regulatory process, 
as we're speaking today, through UMRA and other acts, it would 
improve the process. It could bring projects to completion 
sooner and less costly.
    Mr. Grothman. Okay. Any of the others.
    Do you have a comment on that, Mr. Reed?
    Mr. Reed. Thank you. I will mention, as I indicated in my 
written testimony to the committee, is that, recently, in 
Kansas City, Missouri, we had an $800 million general 
obligation bond, which we put forward to our voters, that would 
deal with three items: one would be transportation; two being 
flood control; and three being the ADA and also public 
facilities.
    The reason why we had that is because of the very question 
that you were asking in terms of how can we backfill many of 
the items that we have to get done. And so we asked our voters 
to be able to help us with that to help fill those backfills 
that we have.
    And it was passed overwhelmingly. But I can tell you it's 
something that will be a real burden to our citizens over a 
period of 20 years as we have it.
    Mr. Grothman. Thank you.
    Another question I have for you--and I don't need to call 
this a mandate, but I can think of examples in Wisconsin where 
maintenance of effort resulted in people doing things they 
wouldn't do at all otherwise or were stuck--I'll let you go 
with that, though. Any of the four of you have any comments on 
maintenance of effort in which you maybe feel you are forced to 
do things you wouldn't do otherwise or think is outright a 
complete waste of money?
    Mr. Niederhauser. I mentioned the Perkins Program, the 
Perkins grant with education. And I think that's a perfect 
example: $12 million mandating $241 million of State funding. 
While we would do some of that already, the flexibility and 
efficiencies of crafting those things on our own--we're there 
on the ground. We're where the rubber meets the road, maybe not 
quite as much as the local governments. But I know that we can 
get the outcomes, because I think that's what we're missing 
here, is focusing on what the outcomes are. And let's not have 
regulation that's making us do something that is not getting 
the outcomes. I can--we have a list of those things--and focus 
on clean air, clean water, getting our children educated. But 
we waste and we burn money with regulation that really doesn't 
have an impact on the bottom line.
    Mr. Grothman. I think of TANF funds. For both of the guys 
on the State level, do you ever feel that you're getting money 
that you don't need?
    Mr. Niederhauser. Yes. We have unspent TANF money in Utah.
    Mr. Grothman. Right. So you're in a position--maybe you can 
give us an example--in which you maybe have to make up 
something to do just to sop up the Federal money.
    Mr. Niederhauser. I think that that happens. No question.
    Mr. Grothman. Can you give an example of what you do in 
Utah when you have a bunch of money sitting around that you 
really don't want to use, but the Federal Government says you 
got to use it.
    Mr. Niederhauser. I think that's obvious. You start to 
create programs and spend it where it's really not necessary.
    Mr. Grothman. I don't want to embarrass any programs, but 
do you find the same thing in North Carolina, Mr. Davis.
    Mr. Davis. Yes, sir, we do. And I'm--this session, I'm the 
new chair of Transportation Policy and Appropriations. And 
I've--2 weeks ago, I spent my spring vacation visiting the 
Outer Banks and looking at the issues that they have to deal 
with out there. And I haven't seen any money in transportation 
that we couldn't use yet, but I sure have seen a lot of 
unfunded mandates. And particularly what we're working with is 
environmental assessments when we have a transportation project 
to deal with these environmental regulations that delay the 
completion of these projects and add exponentially to the cost.
    Mr. Grothman. Okay. Can I just still get one comment from 
Mr. Niederhauser? I would like if you could get something 
together because we have an Appropriations Committee that I 
hope I can trust--but we don't know yet--who might be under the 
impression we have to keep TANF at the current level. If you 
could give us something in writing that we could forward to 
these guys so they can realize--I know Wisconsin also does 
things that we--just throwing away money because we have a 
maintenance of effort on this stuff. But thank you.
    Mr. Niederhauser. Thank you.
    Mr. Palmer. I thank the gentlemen.
    The chair recognizes the ranking member, Mrs. Demings, for 
additional questions.
    Mrs. Demings. Thank you so much, Mr. Chair.
    Councilman Reed, the administration's proposed budget would 
cut 482 million from the EPA's categorical grant programs that 
aid State and local governments in protecting human health and 
the environment. Your testimony indicates that cutting 
categorical grant programs that serve State and local 
governments is a step in the wrong direction. Is that correct? 
And why do you feel that way?
    Mr. Reed. Well, we feel it's a cut--as I believe I even 
mentioned earlier--is that these would be, unfortunately, ways 
that we would have to try to figure out, where do we get 
funding from? And so we feel that it would be a step in the 
wrong direction.
    Mrs. Demings. According to the National League of Cities, 
another quote is, ``Measures requiring cities to use local law 
enforcement resources to enforce Federal immigration laws are 
unfunded mandates that impose additional disproportionate 
responsibilities on local law enforcement, increase financial 
liability on local governments, and ultimately move us further 
from our fundamental principles of federalism,'' which Mr. 
Niederhauser spoke so eloquently about in his opening 
statement.
    Mr. McKay, do you share the concerns of the National League 
of Cities that measures requiring local law enforcement to 
enforce Federal immigration laws are unfunded mandates?
    Mr. McKay. I do. I think they're the mother of all unfunded 
mandates. Not only would they cost us money, but they would 
permanently damage the relationship that law enforcement in 
Fairfax County has with our community and further endanger our 
citizens. Bottom line is our police prevent crime and solve 
crimes. And without a robust conversation with a community that 
feels comfortable talking to law enforcement, we think it would 
have a significant impact on our ability to solve crimes, 
protect victims, and seek proper prosecution.
    We do cooperate with ICE when we have an opportunity to. 
But asking local governments to take on a massive Federal 
responsibility, such as immigration enforcement, we think is 
damaging not only as a mandate but also damaging to the fabric 
of our community.
    Mrs. Demings. At the same time, the administration's budget 
proposal cuts the State Criminal Alien Assistance Program, a 
grant program to reimburse States and local governments for 
incarcerating undocumented immigrants, which would appear that 
counties would then--or local governments would then incur 
millions of dollars in unreimbursed expenses each year in 
housing undocumented individuals that violate State and local 
laws.
    Do you believe that cutting programs such as this leaves 
local government then holding the bag?
    Mr. McKay. It absolutely would leave us holding the bag.
    Mrs. Demings. Thank you so much.
    Mr. Chair, I yield back.
    Mr. Palmer. Thank you.
    I have a few additional questions.
    Senator Niederhauser, you mentioned in your testimony that 
State-based innovation is being stifled because of Federal 
mandates. I've been involved in this area for a number of 
years, going all the way back to the passage of the Unfunded 
Mandates Relief Act. The thing that I've seen is that, 
particularly with the EPA and other Federal agencies, they've 
gotten outside of what the original intent was. Originally, it 
was designed to operate within a framework of what we called 
cooperative federalism where the--let's just use the EPA as an 
example. They would write the regulations. Congress would pass 
the law. The EPA would write the regulations. But it would be 
up to the States--they were given broad latitude and 
flexibility to implement the regulations as long as they met 
the objectives. In your experience in the State of Utah, is 
that intent still being complied with?
    Mr. Niederhauser. Well, we want clean water, and we want 
clean air. Those are good outcomes. But we feel like we're 
tripping over a bunch of regulation that's costing us a lot of 
money, creating inefficiencies and burning State tax.
    Mr. Palmer. Let me ask it this way. Does the State of Utah 
have the ability to effectively partner with the Federal 
Government, whether it is the EPA or another Federal agency, to 
implement Federal regulations.
    Mr. Niederhauser. No. It's a top-down approach to 
government.
    Mr. Palmer. But do you think you have the ability within 
the State of Utah to implement these guidelines if given the 
flexibility and the latitude to do so.
    Mr. Niederhauser. Yes. Absolutely.
    Utah has shown through a number of different policies that 
we can innovate, that we can do things and have outcomes and 
save tax dollars.
    Mr. Palmer. Do you believe that you can do it in a more 
cost-effective manner and accomplish the same objectives than 
within the current framework that you're having to operate 
under.
    Mr. Niederhauser. Absolutely. No question.
    Mr. Palmer. Senator Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I'd love to speak to this issue. I think that the 
presumption that all wisdom and knowledge emanates from our 
Nation's Capital or our State's capital is an erroneous one. 
Some of the most creative and innovative ideas that I've ever 
seen are from local government. As a matter of fact, I use them 
as a resource. Unfortunately, many of them tell me that 
``nobody from the State has ever asked me how to accomplish 
this.'' And for that reason, I strongly support block-granting 
a lot of things to the State and to the local government. Hold 
them accountable. Tell them what the goal is and what the end 
product that you want. But get rid of a lot of needless 
regulations. Those people on the ground, they know what they 
are. Just release them.
    Mr. Palmer. To your point, I'd like to point out that if 
you look at the data--and it's government data--improvements in 
air quality, water quality, and land use, that sort of thing, 
most--and, obviously, it was the low-hanging fruit--but most of 
the improvements, the biggest improvements, occurred when we 
operated under the concept of cooperative federalism.
    Judge Moore, does Boone County have the ability to carry 
out these mandates without it being a top-down, inflexible 
approach?
    Judge Moore. No. We need to be at the table during the 
process.
    Mr. Palmer. You don't think you can, or do you agree that 
you could carry this out if you're a partner in this?
    Judge Moore. If we're a partner and we have a voice in the 
process, many times, I think we can. There may be some 
situations we cannot.
    An example, with the Clean Water Act and with the payment-
in-lieu fees for impacts to streams and wetlands, I mentioned 
we have combined sewer overflows and sanitary sewer overflows. 
We're not allowed to use these mitigation fees to clean up our 
streams in the same watershed. Instead, those revenues are 
pulled to another watershed, usually in another county, and we 
never see the revenue again.
    We do agree with the environmentalists in our area, a 
better use of those funds would be to use them in the same 
watershed to eliminate SSOs and CSOs. That would be a perfect 
example of not spending more money at the Federal level but 
receiving a better outcome if we're part of the process.
    Mr. Palmer. Mr. Reed--and I realize that there's certain 
programs, particularly at the local level, that would be 
outside your expertise. But you mentioned health care and the 
burdens of Medicaid that are being imposed on you. If given the 
ability to have more flexibility in the administration of these 
programs, do you think you could do that effectively and 
efficiently.
    Mr. Reed. Well, I didn't in my testimony mention--I believe 
it was one of my other partners here on the dais who mentioned 
the health care. But I think I share, of course, the same 
example, is that if we have to carry these out, we, of course, 
as a community, will. But the relief that we need is, of 
course, having the opportunity to address these items in the 
beginning, and having a seat at the table to talk about ways 
that we can actually pay for it is most important to us.
    Mr. Palmer. Mr. McKay, you've been nodding your head.
    Mr. McKay. Yeah. I agree entirely with what's been said. 
The flexibility in so many of these things is important at the 
local level. One size does not fit all. And many times, Federal 
regulations don't recognize the local environments under which 
they're being applied. And the only way to realize that is to 
have local officials at the table and a good, cooperative 
relationship.
    So, while I agree with many of the Federal requirements, 
certainly of the EPA, and want clean air and clean water, we 
would like to see more flexibility in how those are applied; a 
recognition, particularly, of local governments' ability to pay 
and absorb these regulations; and, frankly, more flexible 
timelines, less punitive actions and more cooperation, 
especially with the jurisdictions who are making attempts to do 
the right thing. There doesn't ever seem to be a recognition of 
that when the Federal Government is looking at these.
    And so one size does not fit all in the ground-level 
application of these regulations. We need that flexibility.
    Mr. Palmer. Well, I ask these questions in the spirit of--I 
believe it was another Virginian who had this observation that 
the government that governs best governs closest to the people. 
And I think you have more transparency. You have more 
accountability. But you also have the ability to innovate.
    One size does not fit all. That's particularly important, I 
think, in the area, for instance, of Medicaid and giving the 
States the flexibility to innovate, and I think it eliminates a 
lot of the problems we have with improper payments of Medicaid. 
We sent out $36.3 billion last year in improper payments on 
Medicaid.
    Same thing is true of going back to the original intent of 
the EPA and cooperating with State and local government and 
allowing State and local government to implement Federal 
regulations with broad latitude as long as you meet the 
standard, because the objective, as Senator Niederhauser has 
mentioned several times, is we want clean air, clean water. We 
want wise land use. We want to preserve the environment for the 
future. But those are not inconsistent with allowing the States 
more latitude in carrying out these regulations. And I think 
the situation that we find ourselves in right now with these 
unfunded mandates makes that extremely difficult for you and 
extremely costly and diverts resources away from other programs 
that really need the money and makes it--and particularly at 
the local level because you've got so little ability to 
generate revenues to meet some of these mandates.
    I now recognize the vice chairman, Mr. Grothman of 
Wisconsin, for 5 minutes.
    Mr. Grothman. I just want to give you guys one more chance, 
because I can think of so many ways that--constantly, 
constantly ran into situations where States are doing something 
that is sometimes a complete waste of money and sometimes even 
counterproductive to meet Federal mandates.
    Particularly for the State guys, Mr. Niederhauser and Mr. 
Davis, do you have any experience on problems with education 
because of Federal mandates, things where your schools are 
maybe doing something they wouldn't have to do otherwise?
    Mr. Niederhauser. Well, there's a lot of examples. One was 
just--it's been several years ago--how school lunches changed, 
mandated by--well, that was an administration issue. They were 
working fine in Utah, but the new requirements--actually, my 
wife works at the elementary school across the street. She 
found that children were eating less. Even though some of those 
were intended to--some of those mandates were intended to help 
nutrition, the outcomes were not there. In fact, it was the 
opposite. So that's just one. There's----
    Mr. Grothman. Could you give us some others?
    Mr. Niederhauser. Yeah. For example, I mentioned the 
Perkins Program in my testimony. But just the thing that really 
we struggle with in Utah is--education is a big deal.
    Mr. Grothman. Uh-huh.
    Mr. Niederhauser. And 91 percent of the money comes from 
State assessments, taxes. But yet 9 percent of the money coming 
from here in Washington is driving the ship. And the outcomes 
that we could accomplish without those regulatory burdens and 
the desire we have for every dollar that--those are all 
precious dollars. So we don't want to give up any of them, and, 
consequently, we allow Washington to dictate a lot of what we 
do.
    Mr. Grothman. Right.
    Okay. Mr. Reed, it looks like you've had problems--we've 
had problems too. Nobody argues with the idea that we should 
help people with disabilities. But sometimes when you hear 
about the Federal mandates, they require things that you wonder 
who they're really helping, other than the construction 
companies. You had some problems with the Americans with 
Disabilities Act. Do you care on elaborating about that?
    Mr. Reed. Thank you.
    I appreciate the opportunity to elaborate a little further.
    You know, I think one of the things is the time constraints 
for our resources in directing how much work has to be done and 
when it has to be done. We want to make sure that we're meeting 
the terms and the agreements as part of our settlement. But a 
longer timeframe and also additional flexibility for priority 
of the projects also benefit our city and our citizens, 
allowing a more efficient plan of how we think the resources 
should be used.
    As I mentioned earlier, too, about our general obligation 
bond, which we passed, I mean, we want to make sure we're 
compliant. We want to make sure we're providing places where 
many of our citizens are able to get in and out of facilities 
and have the access that they need and deserve. But we also 
need to do it within a good timeframe that allows for us to do 
it in a way that the resources are actually there.
    Mr. Grothman. Do you ever find you're being asked to do 
things that cost more money that you look at and you wonder, 
who are you even benefiting.
    Mr. Reed. Sure. I mean--yeah.
    Mr. Grothman. It's horribly designed. The Federal 
Government ought not be involved in this stuff or should be 
much less involved. I'll put it that way.
    The Clean Air Act, I guess, is a problem for Kansas City, 
right? The Ozone Standard?
    Mr. Reed. Correct. Yes.
    Mr. Grothman. And this is something, I take it, the Federal 
Government may make it much more expensive to operate 
manufacturing facilities in Kansas City. Is that right.
    Mr. Reed. Yeah, it is. You know, it's one of the things 
that I mentioned even in my testimony earlier and also in my 
written testimony, that it is a problem. I mean, it's 70 parts 
per billion that we continue to see. And our State, local 
government, and also our Mid-America Regional Council has been 
working to kind of find ways to--forward. And we've got to 
figure out how to fix it.
    Mr. Grothman. You lived in Kansas City a long time.
    Mr. Reed. Born and raised.
    Mr. Grothman. Wow. Did you feel unhealthy living in Kansas 
City 30 years ago.
    Mr. Reed. Say that again.
    Mr. Grothman. Did you feel unhealthy living in Kansas City 
30 years ago.
    Mr. Reed. Well, I wouldn't recall 30 years ago.
    Mr. Grothman. Okay. We have an ozone problem in the 
Wisconsin area. I felt quite healthy growing up, and now 
they've got a lot stricter things.
    But as we fight for jobs for our cities, there are--and I 
know there are people who--you know, I don't know how they 
expect big cities to thrive without manufacturing jobs, but 
apparently people do. But you do feel that you're putting 
manufacturers in Kansas City at a competitive disadvantage with 
other areas around the country as well as other countries? Do 
you feel that way?
    Mr. Reed. Yeah, we do. And it's how do we provide that 
relief is what's most important as well.
    Mr. Grothman. Well, I hope you let everybody in Kansas City 
know it's the Federal Government who is making it more 
difficult to get these manufacturing jobs, and we'll see what 
we can do about making that part of Mr. Trump's Drain the Swamp 
initiative.
    Thank you very much.
    Mr. Palmer. I would like to thank the witnesses for taking 
the time to appear before us today.
    Mr. Niederhauser, I think there was a request for 
additional information on your TANF program in Utah, which if 
you provide that, appreciate if you provide it to the 
subcommittee, and we will provide that to Vice Chairman 
Grothman.
    Mr. Palmer. If there are no objections, with that, the 
subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
